Michael Wright vs. Mario Cardenas. et al.

Supreme Court No..

APPENDIX A TABLE of CONTENTS
DESCRIPTION

PAGE(S)

11th Circuit 12/02/20 Clerk letter

A2

11th Circuit 11/10/20 Decision

A3

11th Circuit 06/30/20 Judgment

A4

11th Circuit 06/30/20 Decision and Memorandum

A5-A8

Doc.255 District Court 11/04/19 Order

A9-A17

Doc.236 District Court 08/16/19 Order

A18-A26

Doc.231 District Court 05/17/19 Order

A27-A28

Doc.168 District Court Case Management and Scheduling Order

A29-A41

Doc.224 Defendants Records Supervisor Affidavit

A42-A43

Civil Case Docket #: 6:17 - cv - 00436 - CEM - DCI

A44-A74

Doc.246 Plaintiffs Fourth Motion for Judicial Notice

A75-A78

Doc.245 Plaintiffs Objection

A79-A82

Doc.238 Joint Final Pretrial Statement

A83-A-87

Doc.235 Plaintiffs Third Motion for Judicial

A88-A-91

Doc.232 Motion for Judgment on the Pleadings

A92-A101

Doc.226 Plaintiffs Second Motion for Judicial Notice

A102-A107

Doc.223 Plaintiffs Motion for Judicial Notice

A108-A113

Doc. 160 Answer and Affirmative Defenses

A114-A116

Doc. 1 attachment: arrest warrant Defendant Echevarria

A117

Al

USCA11 Case: 19-14757

Date Filed: 12/02/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www .cal 1 .iificnnrtfi.gnv

David J. Smith
Cleric of Court

December 02,2020
Michael J. Wright
13419 SUMMERTON DR
ORLANDO, FL 32824
Appeal Number: 19-14757-AA
Case Style: Michael Wright v, Mario Cardenas, et al
District Court Docket No: 6:17-cv-00436-CEM-DCI
Notice of receipt: Petition for Panel Rehearing and Petition for Hearing En Banc as to Appellant
Michael J. Wright. NO ACTION WILL BE TAKEN - Case is closed.
Petition for Panel Rehearing was denied on November 10,2020.

Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: T. L. Searcy, AA
Phone#: (404) 335-6180
MP-1

A2

USCA11 Case: 19-14757

Date Filed: 11/10/2020

Page: 1 of 1

m THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14757-AA
MICHAEL J. WRIGHT,
Plaintiff - Appellant,
.versus
MARIO CARDENAS,
IAN DOWNING,
FELIX ECHEVARRIA,
BRANDON LAYNE,
MICHAEL B. STRICKLAND, et al

•9

Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
BEFORE: JORDAN, GRANT, and LUCK, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Appellant Michael J. Wright is DENIED.

ORD-41

A3

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 19-14757
District Court Docket No.
6:17-CV-00436-CEM-DCI
MICHAEL J. WRIGHT,
Plaintiff - Appellant,
versus
MARIO CARDENAS,
IAN DOWNING,
FELIX ECHEVARRIA,
BRANDON LAYNE,
MICHAEL B. STRICKLAND, et al.,
Defendants - Appellees.
Appeal from the United States District Court for the
Middle District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: June 30,2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

A4
ISSUED AS MANDATE 11/18/2020

'*■

Case: 19-14757

Date Filed: 06/30/2020

Page: 1 of 3

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14757
Non-Argument Calendar
D.C. Docket No. 6:17-cv-00436-CEM-DCI

MICHAEL J. WRIGHT,
Plaintiff-Appellant,
;

versus
MARIO CARDENAS,
IAN DOWNING,
FELIX ECHEVARRIA,
BRANDON LAYNE,
MICHAEL B. STRICKLAND, et al.,
Defendants-Appellees.

Appeals from the United States District Court
for the Middle District of Florida
(June 30,2020)
Before JORDAN, GRANT, and LUCK, Circuit Judges.

A5

Case: 19-14757

Date Filed: 06/30/2020

Page: 2 of 3

PER CURIAM:
Michael Wnght, proceedings $<?, sued the City of Kissimmee and
of its police officers under 42 U.S.C. § 1983.

several

He alleged a number of constitutional

violations related to his arrest in 2014.
As relevant here, the district court granted summaiy judgment in favor of the
City on Mr. Wright’s Fourth Amendment

excessive force claim. This is Mr.

Wright’s appeal as to that claim. For the following reasons, we affirm.1
First, the district court did not err in permitting the City to amend its pre-trial
statement, which contained a scrivener
sr’s error. In the pre-trial statement, the City
said that it “denie[d] that its law enforcement used reasonable force during ... the
“**" but the word “reasonable*’ should have been “unreasonable.” A district court
may allow a party to amend apre-trial order, see Sherman v. United States, 462 F.2d
577, 579 (5th Cir. 1977), or a pre-trial statement, see Cruz v. U.S. Lines Co., 386
F.2d 803, 804 (2d Cir. 1967), and here there was no abuse of discretion,

The City

notified the district court of the error just five days after the filing of the pre-trial
statement, and each of the City's other filings denied wrongdbing. Mr. Wright was
therefore not unfairly prejudiced by the amendment. Cf. Perez v. Miami-Dade Cty.,
297 F.3d 1255, 1264-67 (11th Cir. 2002) (holding, in a § 1983 case, that the district

We assume the parties’ familiarity with the record and set
only what is necessary to explain
our decision. As to any issues not specifically discussed, weout
summarily affirm.
2
A6

Case: 19-14757

Date Filed: 06/30/2020

Page: 3 of 3

court should have permitted a municipality to withdraw its admission on the issue of
custom/policy).
Second, we reject Mr. Wright’s argument that the district court erred by
relying on the reports of the police officers with respect to the force used and the
reason force was necessary. The reason is that Mr. Wright expressly sued the
officers only in their official capacities. See D.E. 157 at 2 (“this complaint is brought
against all defendants in their official capacity”) (emphasis in original). An officialcapacity suit against a police officer or government official is a suit against the
officer’s employer—the .government entity—so here the Fourth Amendment
excessive force claims against the officers were municipal liability claims against
the City. See Kentucky v. Graham, 473 U.S. 159,166 (1985).
To hold the City liable for any excessive force used by its officers, Mr. Wright
had to show that a custom, policy, or practice of the City caused the violations. See,
e.g., Hoefling v. City ofMiami, 811 F.3d 1271,1279 (11th Cir. 2016). As the district
court correctly explained, Mr. Wright did not present any evidence of a City custom,
policy, or practice that caused the alleged excessive force. See D.E. 255 at 6-7. So
there is no basis for municipal liability even if any of the officers used excessive
force.2
AFFIRMED.

2 Stated differently, the district court’s consideration of the reports is at most harmless error.
3
A7

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDINO
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court '
For roles end forms visit

June 30,2020
MEMORANDUM to counsel or parties
Appeal Number: 19-14757-AA
Qae Style: Michael Wright v. Mario Cardenas, et al
District Court Docket No: 6:17-cv-00436-CEM-DCI
system, unlesseKempl^fo^ood

d“a*S^SS1^1'S.bee”

aSing ** E,ectronic Case Files ("ECF")

7“* “ FR^3“

^

a later

rehearingeaban/isgovernedby'll^af R^JMEiwaaoSiW-^fil“8*l>eti,io11 for
filings, a petition fbf rehearing or for rehearine m hSS °*erwise provided by FRAP 25(a) for inmate
time specified in the rules. Costs are governed^ FRAP 39 and* lfct?“ theclerk’soffice within the
of amotion for attorneyVfires and an objection memo* go»e,ne^fcXSS,T* “d C0”Kn‘
of all persons and entities listed oSL^meTprevTo^med bv^rtifia^ °f I"terested Persons a complete list
1. In addition, a copy of the opinion souS bTrEZncfn y,Ti,arty ,n *e “PP^ ^SS 11th Cir. R. 26.1for rehearing en banc, gee 11th Cir. R, 3S?5(k) and 40-1.
^100 uded m my Petition for rehearing or. petition

spent on the appeal

cIaiming compensation for time

Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna H. Clark
Phone #: 404-335-6151

OPIN-1 Ntc of Issuance of Opinion

A8

Case 6:17-cv-00436-CEM-DCI

Document 255
1743

Filed 11/04/2019

Page 1 of 9 PagelD

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

MICHAEL J. WRIGHT,
Plaintiff,
Case No: 6:17-cv-436-Orl-41DCI

v.
MARIO CARDENAS, IAN DOWNING,
FELIX ECHEVARRIA, BRANDON
LAYNE, MICHAEL B. STRICKLAND,
BRADLEY A. WHEELER and CITY OF
KISSIMMEE,
Defendants.
ORDER

THIS CAUSE is before the Court on Defendants’ Motion for Summary Judgment
Regarding Plaintiffs Fourth Amendment Excessive Force Claim (“Motion,” Doc. 251). Plaintiff
filed a Response in Opposition (Doc. 252) and an Amended Response in Opposition (“Amended
Response,” Doc. 253). The Court will consider the Amended Response. For the reasons stated
herein, the Motion will be granted.
I.
A.

Background

Arrest

On October 4, 2014, Felix Echevarria was working for the City of Kissimmee (“City”)
Police Department (“KPD”) as a law enforcement officer. (Echevarria Report, Doc. 224-1, at 10). i
At approximately 10:12 PM, Echevarria was patrolling an area known for illicit drug sales and

i

Multiple KPD reports are included within the filing at Docket Entry 224-1. The Affidavit
of Shannon Proco, KPD Records Supervisor, appears at pages 1-2. The Incident/Investigation
Report and attachments appear at pages 4-9. The individual KPD officers’ reports appear at pages
10-11 (Officer Echevarria), 12 (Officer Fundora), 13 (Officer Wheeler), 14 (Officer Layne), and
15-18 (Officer Downing).
A9
Page 1 of 9

Case 6:17-cv-00436-CEM-DCI

Document 255
1744

Filed 11/04/2019

Page 2 of 9 Page ID

drug use when he observed Plaintiff traveling on a bicycle with no lights, in violation of Florida
law. (Id.; see also Pl.’s Dep., Doc. 224-6, at 20:10-13; Fla. Stat. §316.2065(7) (noting that
“[ejvery bicycle in use between sunset and sunrise shall be equipped with a lamp on the front”)).
Echevarria activated his unmarked police vehicle’s emergency lights and sirens and directed
Plaintiff to stop. (Echevarria Report at 10). Plaintiff looked back and took off on his bicycle. (Id.).
Echevarria identified himself as

member of KPD and again ordered Plaintiff to stop. (Id.).

Plaintiff continued to avoid apprehension, so Echevarria exited his vehicle and chased Plaintiff on
foot. (Id.). While doing so, Echevarria relayed his location to dispatch. (Id.).
Echevarria eventually caught up to Plaintiff, who charged at Echevarria with a closed fist.
(Id.). Echevarria dodged Plaintiffs punch and grabbed Plaintiff, resulting in them falling to the
ground. (Id.). While on the ground, Plaintiff struck Echevarria in the head and continued to struggle
as Echevarria commanded Plaintiff to stop resisting arrest. (Id.). Plaintiff broke free of
Echevarria’s grasp and fled on his bicycle. (Id.).
i.

Two additional KPD police vehicles, driven by Officers Downing and Strickland
(Downing Report, Doc. 224-1, at 16), approached the area to assist Echevarria. (Echevarria Report
at 10). One of the vehicles, driven by Officer Strickland, stopped and blocked Plaintiffs path.
(Echevarria Report at 10; Downing Report at 16). As Plaintiff tried to maneuver around
Strickland’s vehicle, Plaintiff struck the front passenger side bumper. (Echevarria Report at 10;
Downing Report at 16). However, Plaintiff regained control of his bicycle and continued to evade
the KPD officers. (Echevarria Report at 10; Downing Report at 16).
In the meantime, Officer Liusbel Fundora, who was patrolling nearby, heard Echevarria’s
call to dispatch regarding his pursuit of Plaintiff. (Fundora Report, Doc. 224-1, at 12). Fundora
observed Echevarria chasing Plaintiff and joined in the pursuit. (Id.; Echevarria Report at 11).
Fundora yelled “stop police” twice to Plaintiff, who continued to evade the officers. (Fundora

Page 2 of9

A10

Case 6:17-cv-00436-CEM-DCI

Document 255

Filed 11/04/2019

Page 3 of 9 PagelD

1745

Report at 12). Fundora then deployed his taser but was uncertain if it made contact with Plaintiff.
(Id.). Fundora continued to pursue Plaintiff. (Id.).
Officer Brandon Layne and Detective Mario Cardenas were patrolling in a nearby area and
decided to assist with the apprehension of Plaintiff. (Layne Report, Doc. 224-1, at 14). The officers
attempted to head off Plaintiff in their unmarked vehicle. (Id.). As Plaintiff approached them,
Layne exited the vehicle and reached out to grab Plaintiff off his bicycle. (Id.). Plaintiff swerved
to avoid Layne and struck a parking curb, causing him to fall onto the asphalt. (Id.; Fundora Report
at 12). Layne and Cardenas then attempted to handcuff Plaintiff. (Layne Report at 14; Fundora
Report at 12). While Layne and Cardenas were attempting to handcuff Plaintiff, and Plaintiff was
still resisting, Officer Bradley Wheeler arrived on the scene and assisted with getting Plaintiff
under control and in handcuffs. (Wheeler Report, Doc. 224-1, at 13).
B.

Criminal Case

Plaintiff was criminally prosecuted in the Circuit Court of the Ninth Judicial Circuit in and
for Osceola County, Florida, for resisting an officer with violence, battery of a law enforcement
officer, possession of cocaine, and possession of drug paraphernalia. (Am. Information, Doc. 2242, at 1-4). After a non-jury trial, Plaintiff was found guilty of all four charges. (Trial Transcript,
Doc. 224-5, at 159:23-160:17; Judgment, Doc. 224-2, at 45). Plaintiff raised a number of issues,
including the constitutionality of his arrest, both during and after his criminal trial. (See generally
Doc. 224-2). All of Plaintiffs claims for relief were denied. (See generally id.).

Page 3 of 9

All

Case 6:17-cv-00436-CEM-DCI

C.

Document 255
1746

Filed 11/04/2019

Page 4 of 9 PagelD

Motion for Summary Judgment

This Court previously granted summary judgment to Defendants on Plaintiffs Fourth
Amendment false arrest claim, Fifth Amendment claim, Sixth Amendment claim, Eighth
Amendment claim, and Fourteenth Amendment claim. (Aug. 16, 2019 Order, Doc. 236, at 8-9).
However, the Court denied summary judgment with respect to Plaintiffs Fourth Amendment
excessive force claim. (Id. at 9). The Court held a hearing on the Fourth Amendment excessive
force claim on September 18,2019. (Sept. 18,2019 Min. Entry, Doc. 244). At the hearing, counsel
for Defendants moved for leave to file a supplemental motion for summary judgment regarding
Plaintiffs Fourth Amendment excessive force claim, (Sept. 18, 2019 Ore Tenus Motion, Doc.
247), which was granted, (Oct. 3,2019 Order, Doc. 248, at 1). Defendants now move for summary
judgment on Plaintiffs Fourth Amendment excessive force claim, which is the only claim
remaining in the instant litigation. (Doc. 251 at 1).
II.

Legal Standard

Summary judgment is appropriate when the moving party demonstrates “that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). A dispute is genuine “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc., All U.S. 242,
248 (1986). A fact is material if it may “affect the outcome of the suit under the governing
law.” Id. “The moving party bears the initial burden of showing the court, by reference to materials
on file, that there are no genuine issues of material fact that should be decided at trial.” Allen v.
Bd. ofPub. Educ., 495 F.3d 1306,1313-14 (11th Cir. 2007). Stated differently, the moving party
discharges its burden by showing “that there is an absence of evidence to support the nonmoving
party’s case.” Celotex Corp. v. Catrett, All U.S. 317, 325 (1986).
However, once the moving party has discharged its burden, the nonmoving party must “go
beyond the pleadings and by [his] own affidavits, or by the depositions, answers to interrogatories.
A12
Page 4 of 9

Case 6:17-cv-00436-CEM-DCI

Document 255
1747

Filed 11/04/2019

Page 5 of 9 PagelD

and admissions on file, designate specific facts showing that there is a genuine issue for trial.”

Id. at

324 (quotation omitted). The nonmoving party may not rely solely on “conclusory allegations
without specific supporting facts.” Evers v; Gen. Motors Corp., 770 F.2d 984, 986 (11th Cir.
1985). Nevertheless, “[i]f there is a conflict between the parties’ allegations or evidence, the
[nonmoving] party’s evidence is presumed to be true and all reasonable inferences must be drawn
in the [nonmoving] party’s favor.” Allen, 495 F.3d at 1314.
III.

Analysis

Plaintiff has alleged Fourth Amendment excessive force claims individually against each
of the officers involved and against the City. Each of these claims will be

considered separately.

As a threshold matter, this Court finds that Defendants’ Motion is not moot,

as Plaintiff

argues in his Amended Response. The Joint Final Pretrial Statement (Doc. 238) contains
statement by Defendants that “[t]he City of Kissimmee denies that its law enforcement

officers

used reasonable force during the Plaintiffs arrest.” (Id at 2). Plaintiff argues that this is an
admission and that therefore Defendants’ Motion is

moot. However, the City filed a Notice of

Scrivener’s Error (Doc. 242), noting that the reference to “reasonable” force should have been
reference to “excessive” force, (id at 1). The assertion of a scrivener’s

error is supported by the

remainder of Defendants’ filings, all denying any wrongdoing. See Myers v. Toojay's Mgmt. Corp.,
No. 5:08-cv-365-Oc-10GRJ, 2008 U.S. Dist. LEXIS 127783,

at *3 (M.D. Fla. Dec. 16, 2008)

(holding that the defendant should be permitted to correct its inadvertent admission via scrivener’s
error when it was clear from the remainder of the pleading that the admission
it is clear that the City denies that its law enforcement officers used

was in error). Thus,

excessive force during

Plaintiffs arrest. (Doc. 242 at 1).
A.

Municipal Liability for Excessive Force

It is axiomatic that municipalities cannot be “vicariously liable under § 1983 for their
employees’ actions.” Comtek v. Thompson, 563 U.S. 51,60 (2011). “A municipality or other local
Page 5 of 9

A13

Case 6:17-cv-00436-CEM-DCI

Document 255
1748

Filed 11/04/2019

Page 6 of 9 PagelD

government may be liable under [section 1983] if the governmental body itself‘subjects’ a person
to a deprivation of rights or ‘causes’ a person ‘to be subjected’ to such deprivation.” Id. (quoting
42 U.S.C. § 1983). Particularly, a plaintiff “must ultimately prove that the [municipality] had a
policy, custom, or practice that caused the deprivation.” Hoefling v. City ofMiami, 811 F.3d 1271,
1279 (11th Cir. 2016) (citing City of Canton v. Harris, 489 U.S. 378, 385 (1989)). A “policy”
includes decisions of [the municipality’s] duly constituted legislative body or of those officials
whose acts may fairly be said to be those of the municipality.” Bd. ofCty. Comm ’rs of Bryan Cty.
v. Brown, 520 U.S. 397, 403-04 (1997) (citing Monell v. Dep’tofSoc. Servs. ofN.Y.C., 436 U.S.
658, 694 (1978)). A “custom” includes a practice that has “not been formally approved by

an

appropriate decisionmaker” but that “may fairly subject a municipality to liability on the theory
that the relevant practice is so widespread as to have the force of law.” Id. at 404 (citing Monell,
436 U.S. at 690-91); cf. Grech v. Clayton Cty., 335 F.3d 1326, 1329 (11th Cir. 2003) (en banc)
(describing an “unofficial custom” as “shown through the repeated acts of a final policymaker for
the [municipality]”). Taken together, a “municipality ... may be held liable only if [the alleged]
constitutional torts result from an official government policy, the actions of an official fairly
deemed to represent government policy, or a custom or practice so pervasive and well-settled that
it assumes the force of law.” HUlv. Cundiff, 797 F.3d 948, 977 (11th Cir. 2015); see also Connick,
563 U.S. at 61 (defining “[o]fficial municipal policy” to “include[] the decisions of a government’s
lawmakers, the acts of its policymaking officials, and practices so persistent and widespread as to
practically have the force of law”).
Defendant correctly asserts that Plaintiff has not produced any evidence that the City “had
a policy, custom, or practice” that caused the alleged use of excessive force by KPD officers.2

Plaintiff s only apparent reference to policy, custom, or practice regarding excessive force
is a law review Comment submitted at Docket Entry 249. The filing appears to assert the
unremarkable proposition that a municipality may be held liable for the actions of its employees
when the municipality has a policy that caused the Constitutional depravation. This is not evide
nee.
Page 6 of 9
A14

Case 6:17-cv-00436-CEM-DCI

Document 255
1749

Filed 11/04/2019

Page 7 of 9 PagelD

Hoefling, 811 F.3d at 1279 (citing City of Canton, 489 U.S. at 385). Thus, as a matter of law,
Plaintiff cannot prevail on his Fourth Amendment excessive force claim against the City, and
summary judgment will be granted to the City.
B.

Individual Liability for Excessive Force

“[A] free citizen’s claim that law enforcement officials used excessive force in the course
of making an arrest, investigatory stop, or other ‘seizure’ of his person ... [is] properly analyzed
under the Fourth Amendment’s ‘objective reasonableness’ standard.” Graham v. Connor, 490 U.S.
386,388 (1989). “Determining whether the force used to effect a particular seizure is ‘reasonable’
under the Fourth Amendment requires a careful balancing of the nature and quality of the intrusion
on the individual’s Fourth Amendment interests against the countervailing governmental interests
at stake.” Id. at 396 (quotation omitted).
“In determining the reasonableness of the force applied, we look at the fact pattern from
the perspective of a reasonable officer on the scene with knowledge of the attendant circumstances
and facts, and balance the risk of bodily harm to the suspect against the gravity of the threat the
officer sought to eliminate.” Terrell v. Smith, 668 F.3d 1244, 1251 (11th Cir. 2012) (quotation
omitted). When determining the perspective of a “reasonable officer on the scene,” courts must be
careful not to use the “the 20/20 vision of hindsight.” Id. (quoting Graham, 490 U.S. at 396). “The
calculus of reasonableness must embody allowance for the fact that police officers are often forced
to make split-second judgments—in circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary in a particular situation.” Graham, 490 U.S.
at 396-97.
“Fourth Amendment jurisprudence has staked no bright line for identifying force as
excessive.” Jackson v. Sauls, 206 F.3d 1156,1170 (11th Cir. 2000) (quotation omitted). “The hazy
border between permissible and forbidden force is marked by a multifactored, case-by-case
balancing test, and the test requires weighing of ail the circumstances.” Id. (quotation omitted);
A15
Page 7 of 9

Case 6:17-cv-00436-CEM-DCI

Documerrt 255

Filed 11/04/2019

Page 8 of 9 PagelD

see also Scott v. Harris, 550 U.S. 372, 383 (2007) (noting that in order to determine whether
excessive force was used “we must... slosh our way through the factbound morass of
‘reasonableness’”)rNevertheless, the Eleventh Circuit distilled three guiding factors from Graham
to assist in balancing the analysis: “(i) the severity of the crime at issue, (ii) whether the suspect
poses an immediate threat to-the .safety of the officers or others, and (iii) whether he is actively
resisting arrest or attempting to evade arrest by flight.” Steen v. City of Pensacola, 809 F. Supp.
2d 1342, 1349-50 (N.D. Fla. 2011) (citing Brown v. City of Huntsville, 608 F.3d 724, 738 (11th
Cir. 2010)).
Considering the evidence presented, ail of the Steen factors heavily balance in favor of the
individual KPD officers in this case. 809 F. Supp. 2d at 1349-50. Plaintiff was actively fleeing
from a law enforcement officer. When Officer Echevarria caught up to Plaintiff, Plaintiff charged
at Echevarria with a closed fist. During Echevarria’s attempt to get Plaintiff under control, Plaintiff
struck Echevarria in the head. At this point, Plaintiff had committed serious crimes, was an
immediate threat to law enforcement officers, and was actively resisting arrest and attempting to
evade arrest by flight. After Plaintiff got away from Echevarria, Plaintiff continued his attempts to
evade all of the KPD officers now in pursuit. Officer Strickland attempted to head off Plaintiff by
blocking Plaintiff s path with his vehicle. Plaintiff again attempted to evade officers, at which time
he hit Strickland’s vehicle. When yet a third set of KPD officers, Officers Layne and Cardenas,
attempted to apprehend Plaintiff, he still continued to resist. It took three officers—Layne,
Cardenas, and Wheeler—to finally get control of Plaintiff and get him in handcuffs.
Considering these undisputed material facts and the factors set forth by the Eleventh
Circuit, this Court finds that all of the KPD officers’ actions in attempting to apprehend Plaintiff
were objectively reasonable. See Terrell, 668 F.3d at 1251. None of the KPD officers employed
excessive force considering the attendant circumstances, id., and Plaintiff has put forth no evidence

Page 8 of 9

A16

Case 6:17-cv-00436-CEM-DCI

Document 255
1751

Filed 11/04/2019

Page 9 of 9 PagelD

to the contrary. Thus, summary judgment is due to be granted to each of the individual KPD
officers as to the Fourth Amendment excessive force claim
IV.

Conclusion

For the reasons stated herein, it is ORDERED and ADJUDGED that:
1. Defendants’ Motion for Summary Judgment Regarding Plaintiffs Fourth
Amendment Excessive Force Claim (Doc. 251) is GRANTED.
2. The Clerk is directed to enter judgment in favor of Defendants and against Plaintiff,
providing that Plaintiff shall take nothing on any of his claims against Defendants.
Thereafter, the Clerk shall close this case.
DONE and ORDERED in Orlando, Florida on November 4, 2019.

CARLOS E. MENDOZA I
UNITED STATES DISTRICT JUDlE

Copies furnished to:
Counsel of Record
Unrepresented Party

A17
Page 9 of 9

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 1 of 9 PagelD 1612

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
MICHAEL J. WRIGHT,
Plaintiff,
Case No: 6:17-cv-436-Orl-4!DCI

v.
MARIO CARDENAS, IAN DOWNING,
FELIX ECHEVARRIA, BRANDON
LAYNE, MICHAEL B. STRICKLAND,
BRADLEY A. WHEELER and CITY OF
KISSIMMEE,
Defendants.
ORDER

THIS CAUSE is before the Court on Defendants’ Motion for Summary Judgment
(“Motion,” Doc. 224), to which Plaintiff filed a Response (Doc. 230). Also before the Court is
Plaintiffs Motion for Sanctions (Doc. 221), to which Defendants filed a Response (Doc. 227). For
the reasons set forth herein, the Motion will be granted in part, and Plaintiffs Motion for Sanctions
will be denied.
I.
A.

Background1

Arrest

On October 4, 2014, Defendant Felix Echevarria was working for the City of Kissimmee
Police Department (“KPD”) as a law enforcement officer. (Praco Aff., Doc. 224-1, at 10). At
approximately 10:12 p.m., Echevarria was patrolling an area known for illicit drug sales and drug
use when he observed Plaintiff traveling on a bicycle with no lights, in violation of Florida law.
(Id.; see also Pl.’s Dep., Doc. 224-6, at 20:10-13; Fla. Stat. § 316.2065(7) (noting that “[e]very
•

1 Plaintiff disputes all of the factual allegations contained within Defendants’ Motion for
Summary Judgment.
Page 1 of9
A18

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 2 of 9 PagelD 1613

bicycle in use between sunset and sunrise shall be equipped with a lamp on the front”)). Echevarria
activated his unmarked police vehicle’s emergency lights and sirens and directed Plaintiff to stop.
(Doc. 224-1 at 10). Plaintiff looked back and took off on his bicycle. (Id). Echevarria identified
himself as a member of the KPD and again ordered Plaintiff to stop. (Id.). Plaintiff continued to
avoid apprehension, so Echevarria exited his vehicle and chased Plaintiff on foot. (Id.). While
doing so, Echevarria relayed his location to dispatch. (Id.).
Echevarria eventually caught up to Plaintiff, who charged at Echevarria with a closed fist.
(Id.). Echevarria dodged Plaintiff’s punch and grabbed Plaintiff, resulting in them falling to the
ground. (Id.). While on the ground, Plaintiff struck Echevarria in the head and continued to struggle
ft-

as Echevarria commanded Plaintiff to stop resisting arrest. (Id.). Plaintiff broke free of
Echevarria’s grasp and fled on his bicycle. (Id.).
Two additional KPD police vehicles approached the area to assist Echevarria. (See id.).
One of the vehicles stopped and blocked Plaintiffs path. (Id.). As Plaintiff tried to maneuver
around the vehicle, he struck the front passenger side bumper and swerved out of control. (Id. at
10-11). However, Plaintiff regained control of his bicycle and continued to evade the KPD
officers. (Id. at 11).
In the meantime, Officer Liusbel Fundora, who was patrolling nearby, heard Echevarria’s
call to dispatch regarding his pursuit of Plaintiff. (Id. at 12). Fundora observed Echevarria chasing
Plaintiff and joined in the pursuit. (Id. at 11-12). Fundora yelled “stop police” twice to Plaintiff,
who continued to evade the officers. (Id. at 12). Fundora then deployed his taser but was uncertain
if it made contact with Plaintiff. (Id. at 11-12). Fundora continued to pursue Plaintiff. (Id. at 12).
Defendants Officer Brandon Layne and Detective Mario Cardenas were patrolling in a
nearby area and decided to assist with the apprehension of Plaintiff. (Id. at 14). they attempted to
head off Plaintiff in their unmarked vehicle. (Id.). As Wright approached them, Layne exited the
vehicle and reached out to grab Plaintiff off bis bicycle. (Id.). Plaintiff swerved to avoid Layne and
Page 2 of9
A19

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 3 of 9 PagelD 1614

struck a parking curb, causing him to fall onto the asphalt. (Id. at 12,14). Layne and Cardenas then
apprehended Plaintiff. (Id. at 11-12,14).
B.

Criminal Case

Plaintiff was criminally prosecuted in the Circuit Court of the Ninth Judicial Circuit in and
for Osceola County, Florida, for resisting an officer with violence, battery of a law enforcement
officer, possession of cocaine, and possession of drug paraphernalia. (Am. Information, Doc. 2242, at 1-3). After a non-juiy trial, Plaintiff was found guilty of all four charges. (Trial Transcript,
Doc. 224-5, at 159:23-160:17; Doc. 224-2 at 45). Plaintiff raised a number of issues, including the
constitutionality of his arrest, both during and after his criminal trial. (See generally Doc. 224-2).
All of Plaintiffs claims for relief were denied. (See generally id.).
II.
A.

Motion for Summary Judgment

Legal Standard

Summary judgment is appropriate when the moving party demonstrates “that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). A dispute is genuine “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). A fact is material if it may affect the outcome of the suit under the governing
law.” Id. “ The moving party bears the initial burden of showing the court, by reference to materials
on file, that there are no genuine issues of material fact that should be decided at trial.”/!//en v.
Bd. ofPub. Educ., 495 F.3d 1306, 1313-14 (11th Cir. 2007). Stated differently, the moving party
discharges its burden by showing “that there is an absence of evidence to support the nonmoving
Party's case.” Celotex Corp. v. Catrett, All U.S. 317,325 (1986).
However, once the moving party has discharged its burden, the nonmoving party must “

go
beyond the pleadings and by her own affidavits, or by the depositions, answers to interrogatories,
and admissions on file, designate specific facts showing that there is a genuine issue for trial.” Id. at
Page 3 of9
A20

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 4 of 9 PagelD 1615

324 (quotation omitted). The nonmoving party may not rely solely on “conclusory allegations
without specific supporting facts.” Evers v. Gen. Motors Corp., 770 F.2d 984, 986 (11th Cir.
1985). Nevertheless, “[i]f there is a conflict between the parties' allegations or evidence, the
[nonmoving] party's evidence is presumed to be true and all reasonable inferences must be drawn
in the [nonmoving] party’s favor.” Allen, 495 F.3d at 1314.
B.

Analysis
1.

Rule 26 Initial Disclosures

As an initial matter, Plaintiff argues that summary judgment should not be granted in
Defendants’ favor because the facts relied upon in Defendants’ Motion cannot be presented in a
form that will be admissible in court. Specifically, Plaintiff notes that Defendants primarily rely
on an affidavit produced by Shannon Praco, a records supervisor for the KPD, (Doc. 224-1 at 1),
and Praco was not included Defendants’ initial disclosures.
“If a party fails to provide information or identify a witness as required by Rule 26(a) ...,
the party is not allowed to use that information or witness to supply evidence on a motion, at a
hearing, or at a trial, unless the failure was substantially justified or is harmless.” Fed. R. Civ. P
37(c)(1). Here, the failure to disclose Praco for the limited purpose of authenticating the various
KPD incident reports was harmless. First, it cannot be a surprise to Plaintiff that Defendants are
relying upon the incident reports given the fact that the circumstances surrounding Plaintiff’s arrest
are at the center of this dispute. Second, Plaintiff does not argue that he did not have access to the
incident reports or any other records authenticated by Praco. Moreover, Plaintiff does not appear
to question the authenticity of those documents. “Given the harmlessness of allowing [Praco] to
authenticate the documents], the Court will not allow technicalities to impede a determination of
the substantive issues in this case.” Budget Rent A Car Sys., Inc. v. Shea, No. 6:17-cv-993-Orl41GJK, 2018 WL 5920478, at *2 (M.D. Fla. Nov. 13,2018).
2.

Fourth Amendment Claims
Page 4 of 9

A21

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 5 of 9 PagelD 1616

Defendants argue that they are entitled to summary judgment on Plaintiff’s Fourth
Amendment claims pursuant to Heck v. Humphrey, 512 U.S. All (1994). In Heck, the Supreme
Court held that:
to recover damages for allegedly unconstitutional conviction or
imprisonment, or for other harm caused by actions whose
unlawfulness would render a conviction or sentence invalid, a
§ 1983 plaintiff must prove that the conviction or sentence has been
reversed on direct appeal, expunged by executive order, declared
invalid by a state tribunal authorized to make such determination, or
called into question by a federal court’s issuance of a writ of habeas
corpus.
512 U.S. 477, 486-87. Thus, when a plaintiff seeks damages in a § 1983 suit, “the district court
must consider whether a judgment in favor of the plaintiff would necessarily imply the invalidity
of his conviction or sentence; if it would, the complaint must be dismissed unless the plaintiff can
demonstrate that the conviction or sentence has already been invalidated.” Id. at 487. “But if the
district court determines that the plaintiffs action, even if successful, will not demonstrate the
invalidity of any outstanding criminal judgment against the plaintiff, tire action should be allowed
to proceed ....” Id. (emphasis omitted).
Here, Plaintiff asserts a claim for false arrest under the Fourth Amendment, arguing that
Defendants lacked probable cause to initiate a traffic stop. However, a determination that the
officers did not possess probable cause would imply the invalidity of Plaintiffs conviction for
resisting an officer with violence. See Quinlan v. City ofPensacola, 449 F. App’x 867, 870 (11th
Cir. 2011) (“[A] finding that the officers did not have probable cause [to execute a traffic stop]
would imply the invalidity of [plaintiffs] conviction for resisting an officer without violence.”).
Therefore, Plaintiffs false arrest claim is barred by Heck, and summary judgment will be entered
in favor of Defendants on this claim.

Page 5 of 9

A22

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 6 of 9 Page ID 1617

Plaintiff also asserts a claim for excessive force under the Fourth Amendment.2 To the
extent that Defendants argue Plaintiffs excessive force claim is barred by Heck, that is not the
case. See Dyer v. Lee, 488 F.3d 876, 881 (11th Cir. 2007) (“In this circuit, we have previously
allowed § 1983 suits for excessive force to proceed in the face of a Heck challenge.”). Because
Defendants raise no other grounds for challenging Plaintiffs excessive force claim under the
Fourth Amendment, summary judgment is denied as to that claim.
3.

Fifth Amendment Claim

Plaintiffs Amended Complaint asserts a claim for a violation of his Fifth Amendment
rights. Defendants argue they are entitled to summary judgment on this claim because the Fifth
Amendment does not apply to state actors. In his response, Plaintiff stipulates to the inapplicability
of the Fifth Amendment to this case. (Doc. 228 at 7). Therefore, Defendants Motion for Summary
Judgment will be granted as to this claim.
4.

Sixth Amendment Claim

Defendants aver that they are entitled to summary judgment on Plaintiffs Sixth
Amendment claim because the state attorney filed the allegedly defective charging document. The
Amended Complaint does not explain how Defendants violated Plaintiffs Sixth Amendment
rights, and Plaintiff does not elaborate on this claim in his Response. Therefore, Defendants are
entitled to summary judgment as to this claim.
5.

Eighth Amendment Claim

Defendants assert that they are entitled to summary judgment on Plaintiffs Eighth
Amendment claim because it does not apply to the use of force during an arrest. The Court agrees
that Plaintiff cannot state a claim under the Eighth Amendment for the allegedly excessive force

2 Although Plaintiff mentioned in his deposition that he was bringing an excessive force
claim under the Eighth Amendment, (see Doc. 244-6 at 41:4-8), the Court is obligated to liberally
construe the allegations in Plaintiffs Amended Complaint. See Haines v. Kerner, 404 U.S. 519,
520-21 (1972).
Page 6 of 9
A23

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 7 of 9 PagelD 1618

he experienced while being arrest. See Cottrell v. Caldwell, 85 F.3d 1480, 1490 (11th Cir. 1996)
(noting that claims involving the mistreatment of convicted prisoners are governed by the Eighth
Amendment). Therefore, Defendants’ Motion for Summary Judgment will be granted as to this
claim.
6.

Fourteenth Amendment Claim

Finally, Defendants argue that summary judgment should be entered in their favor on
Plaintiffs Fourteenth Amendment due process claim because Plaintiff has not put forth facts
necessary to demonstrate a deprivation of his procedural or substantive due process rights. As the
Eleventh Circuit explained, a procedural due process violation occurs “only when the state refuses
to provide a process sufficient to remedy the procedural deprivation.” McKinney v. Pate, 20 F.3d
1550, 1557 (11th Cir. 1994). Here, Plaintiff has had multiple opportunities to contest his
conviction, including before the Florida Fifth District Court of Appeals and the Florida Supreme
Court, and Plaintiff has failed to explain how he was subjected to a procedural deprivation caused
by Defendants. Therefore, Defendants are entitled to summary judgment as to Plaintiffs
procedural due process claim.
To the extent that Plaintiff asserts a substantive due process claim, Plaintiff “cannot seek
relief under a Fourteenth Amendment substantive due process theory for his arrest and claims of
excessive force; those claims as alleged fall squarely within the protections of the Fourth
Amendment and thus can only be brought under that Amendment.” Woods v. Valentino, 511 F.
Supp. 2d 1263, 1285 (M.D. Fla. 2007) (citing Albright v. Oliver, 510 U.S. 266, 274-75 (1994)).
Because Plaintiff asserts no other theories of relief under the Fourteenth Amendment, Defendants
are entitled to summary judgment on this claim.
III.

Motion for Sanctions

Plaintiff moves for sanctions against Defendants for allegedly failing to abide by the
Court’s Case Management and Scheduling Order (Doc. 168). Specifically, Plaintiff argues that
Page 7 of 9

A24

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 8 of 9 Page ID 1619

Defendants’ counsel canceled the original mediation without justification, failed to provide the
mediator with a written summary of tire facts and issues of the case, and refused to agree to
schedule a meeting to prepare the joint final pretrial statement.
Federal Rule of Civil Procedure 16(f) allows a court to impose sanctions for failure to obey
a scheduling or other pretrial order. Fed. R. Civ. P. 16(f)(1)(C). “Instead of or in addition to any
other sanction, the court must order the party, its attorney, or both to pay the reasonable expenses—
including attorney’s fees—incurred because of any noncompliance with this rule, unless the
noncompliance was substantially justified or other circumstances make an award of expenses
unjust.” Fed. R. Civ. P. 16(f)(2). “The purposes of this wide range of sanctions authorized by' Rule
16(f) are to allow for punishment of lawyers and parries for unreasonably delaying or otherwise
interfering with the court’s ability to manage trial preparation expeditiously, to prevent unfair
prejudice to the litigants, and to ensure the integrity of the discovery process.” Hicks v. Client
Servs., Inc., No. 07-61822-CIV-DIMITROULEAS/ROSENBAUM, 2009 WL 10667497, at *3
(S.D. Fla. Feb. 11, 2009). “Issuance of monetary and other sanctions under Rule 16(f) for
violations of scheduling or other pretrial orders falls within the Court’s discretion.” Vaughn v.
GEMCQ2, LLC, No. 6:17-cv-1713-Orl-41KRS, 2018 WL 6620600, at >;:3 (M.D. Fla. Oct. 31,
2018), report and recommendation adopted, 2019 WL 1765051 (M.D. Fla. Apr. 22, 2019).
Here, Plaintiff has not shown that Defendants failed to obey any of the Court’s orders, let
alone that Defendants’ conduct caused unreasonable delay or unfair prejudice. The parties
conducted mediation, and the deadline to meet in person and prepare a joint final pretrial statement
has not yet expired. Therefore, Plaintiffs Motion for Sanctions will be denied.
IV.

Conclusion

Accordingly, it is ORDERED and ADJUDGED as follows:
1. Defendants’ Motion for Summary Judgment (Doc. 224) is GRANTED in part.

Page 8 of 9

A25

Case 6:17-cv-00436-CEM-DCI Document 236 Filed 08/16/19 Page 9 of 9 Page ID 1620

2. Defendants are entitled to summary judgment on Plaintiff’s Fourth Amendment
false arrest claim, Fifth Amendment claim, Sixth Amendment claim, Eighth
Amendment claim, and Fourteenth Amendment claim.
3. The Motion is DENIED with respect to Plaintiff’s excessive force claim under the
Fourth Amendment.
4. Plaintiff’s Motion for Sanctions (Doc. 221) is DENIED.
5. The parties shall personally attend a hearing on September 18, 2019 at 2:00 PM in
Orlando Courtroom 5B before Judge Carlos E. Mendoza to present additional
argument on Plaintiff’s excessive force claim under the Fourth Amendment.
DONE and ORDERED in Orlando, Florida on August 16, 2019.

'
CARLOS E. MENDOZA I
UNITED STATES DISTRICT JUD«E

Copies furnished to:
Counsel of Record
Unrepresented Party

Page 9 of9

A26

Case 6:17-cv-00436-CEM-DCI Document 231 Filed 05/17/19 Page 1 of 2 PagelD 1596

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
MICHAEL J. WRIGHT,
Plaintiff,
v.

Case No: 6:17-cv-436-Orl-41DCI

MARIO CARDENAS, IAN DOWNING,
FELIX ECHEVARRIA, BRANDON
LAYNE, MICHAEL B. STRICKLAND,
BRADLEY A. WHEELER and CITY OF
KISSIMMEE,
Defendants.
ORDER
THIS CAUSE is before the Court upon sua sponte review. On April 19, 2019, the Court
granted Defendants’ Motion to Extend Dispositive Motions Deadline and set the deadline for May
1, 2019. (Apr. 19, 2019 Order, Doc. 220). The remaining deadlines in this case must also be
amended to account for the extension of the dispositive motions deadline. Accordingly, it is
ORDERED and ADJUDGED that the Case Management and Scheduling Order (Doc. 168) will
be amended as follows:
1. All Other Motions Including Motions in Limine: August 1, 2019
2. Meeting in Person to Prepare Joint Final Pretrial Statement: September 3, 2019
3. Joint Final Pretrial Statement: September 13,2019
4. Trial Status Conference: September 19,2019, at 10:00 A.M.
5. Trial Term Begins: October 1, 2019.

Page 1 of 2

A27

Case 6:17-cv-00436-CEM-DCI Document 231 Filed 05/17/19 Page 2 of 2 PagelD 1597

DONE and ORDERED in Orlando, Florida on May 17, 2019.

CARLOS E. MENDOZA I
UNITED STATES DISTRICT JUdIe

Copies furnished to:
Counsel of Record
Unrepresented Party

Page 2 of 2

A28

Additional material
from this filing is
available in the
Clerk's Office.

